September 11, 2021

Hon. Scott S. Harris
Clerk of Court
Supreme Court of the United States
1 First Street, NE
Washington, CD 20543
Dear Mr. Harris:
On September 11th at 5pm I received a copy of letter (Exhibit A) dated
2021 addressed to you from Jason Boren of Ballard Spahr, LLP in
Brokerage Services, No. 21-5331 entitled "Request for Extension of

for September 7th,

regards to Rusk v. Fidelity

Time to Respond to Petition

for Writ of Certiorari". Mr Boren's letter at the end states that he believ

es he,has good faith cause

to unduly delay due to what he claims as 'requesting counsel is not curren

tly a member of the Bar

of this Court and acknowledges any brief in opposition must be filed

by a member of the Bar of

this Court.
I am writing you to demand that you deny this request for the follow

ing reasons and

because such request of Jason Boren's is in fact brought in bad faith:
Jason Boren has been in receipt of ECF notifications on this case since

its beginning in

12/2015. (Exhibit B)
On December 13, 2019 at 12:25 PM Rusk emailed Mr Boren stating

"Bytheway, again:

who will be litigating against me in the US-SC and/or who shall I send

pleadings to going

forward? If you won't be barred in the US SC in time. (Still haven't receiv

ed a response

on this, perhaps your firm is working on getting you registered)." (Exhib

it C)

Because Mr. Boren was notified of Rusk's intent to file this US-SC
years ago, his request must be DENIED forthwith as it is brought in BAD

Petition almost two

FAITH.

Sincerely,
Zachary R. E. Rusk
Zachary R. E. Rusk 1435-557-1570 I zachrusk5Agmail.com I 211 N 10th Ave
Bozem I 11
www.linkedin.com/inizachrusk I www.facebook.com/zruskl
REC - ED

SEP 15 7071
OFFICE OF THE CLERK
SUPiiE
. COURT U.S.
tiVI

EXHIBIT A

Ballard Sp*.
One Utah Center, Suite Boo
lox South Main Shat

Jason D. Boren
Direct: 801.517.6827
Fax: 801.531.3001
borcaj@ballardspahr.corn

Silt Lake City. UT Ltut-nal
Tat 11o113‘.3csoo
FAX itot.w.loot
vremilallaraspahr.com

September 7, 2021

Hon. Scott S. Harris
Clerk of the Court
Supreme Court of the United States
I First Street, NE
Washington, DC 20543
Rusk v Fidelity Brokerage Services, No. 21-5331
Request For Extension of Time to Respond to Petition for Writ of Certiorari

Dear Mr. Harris:
I am counsel for Respondent Fidelity Brokerage Service ("Fidelity") in the above-captioned
matter. Petitioners' petition for writ of certiorari was placed on the docket August 11, 2021. Per
Rule 15.3 of the Rules of the Supreme Court of the United States, Fidelity's response, if any, is due
September 10, 2021. Fidelity hereby respectfully requests that its time to file a response to the
petition for writ of certiorari in this case be extended by 30 days to October 11, 2021.
This is Fidelity's first request for an extension of time to file a response. Good cause exists
for the requested extension. Petitioner Rusk's petition purports to present six questions for resolution
by this Court, several of which were not raised below, and attached as an appendix nearly 500 pages
of material. Fidelity requires the requested time to evaluate Mr. Rusk's petition and the associated
material to determine what, if any, response would assist this Court in addressing Mr. Rusk's petition
and to prepare a response that Fidelity determines would be most helpful to the Court.
For the foregoing reasons, Fidelity respectfully request that the time for filing a response to
the petition for writ of certiorari in this matter be extended by 30 days, to and including October 11,

2021.

Requesting counsel is not currently a member of the Bar of this Court and acknowledges that
any brief in opposition must be filed by a member of the Bar of this Court.
Sincerely,

Jason D. Boren
JDB/lb

toeursr

41 MAU vl

September 1, 2021
Page 2
cc:

Petitioner Zachary Ru
sk
2VtN 10th Ave
Bozeman MT 59715

:Arno la, 8:698)

EXHIBIT B

From:
Subject:
Date:
To:

utd_enotice@utd.uscourts.gov
Activity in Case 2:15-cv-00853-RJS Rusk v. Fidelity Brokerage
Services Notice of Filing
July 26, 2021 at 10:08 AM
ecf_notice@utd.uscourts.gov

-L.-

•

_•-.

••

--.•

•

This is an automatic e-mail message generated by the CM/ECF
system. If you need assistance, call the Help Desk at
(801)524-6100.
***NOTE TO PUBLIC ACCESS USERS*** Judicial Conferen
ce of the United States policy permits attorneys of record and
parties in a case (including pro se litigants) to receive one free
electronic copy of all documents filed electronically, if receipt
is required by law or directed by the filer. PACER access fees
apply to all other users. To avoid later charges, download a
copy of each document during this first viewing. However,
if the referenced document is a transcript, the free copy and
30
page limit do not apply.
US District Court Electronic Case Filing System
District of Utah

Notice of Electronic Filing
The following transaction was entered on 7/26/2021 at 10:08 AM

MDT and filed on 7/23/2021

Case Name:
Rusk v. Fidelity Brokerage Services
Case Number:
2:15-cv-00853-RJS
Filer:
Zachary R. E. Rusk
WARNING: CASE CLOSED on 04/30/2019
Document Number:311
Docket Text:

NOTICE OF FILING of Petition for a Writ of Certiorari to US
Supreme Court filed by Plaintiff Zachary R.
E. Rusk. (Attachments: # (1) FedEx receipt, # (2) FedEx email
receipt)(jwt)
2:15-cv-00853-RJS Notice has been electronically mailed to:
Jason D. Boren borenj@ballardspahr.com, LitDocket_West@
ballardspahr.com, brownlj@ballardspahr.com,
maddenen@ballardspahr.com, saltlakedocketclerk@ballardspahr.co
m
Zachary R. E. Rusk zachrusk5@gmail.com
2:15-cv-00853-RJS Notice has been delivered by other means

to:

The following document(s) are associated with this transaction:
Document description:Main Document
Original filename:n/a
Electronic document Stamp:
[STAMP dcecfStamp_ID=1060034973 [Date=7/26/2021] [FileNum
ber=4861703-0
] [99f41bc27918e97ca77bd55678b2f56d416d8b58f068f5f81af40
af05fe91b338c5
fa41f6edbd168d5de61d6c61a23ed01a56f2c1dd9f462c9f9f9734a2eda
71]]
Document description: FedEx receipt
Original filename:n/a
Electronic document Stamp:
[STAMP dcecfStamp_ID=1060034973 [Date=7/26/2021] [FileNum
ber=4861703-1
] [99aa109a94babcef9c7b9e5936c2b24cef809940a117dad729a
58f4c085edab1b0c
1b79bd22e949cebfe5b2a0326ea9c2e13af061b675d00fe2a6c701f7d91
54]]
Document description: FedEx email receipt
Original filename:n/a
Electronic document Stamp:
[STAMP dcecfStamp_ID=1060034973 [Date=7/26/2021] [FileNumber=4861
703-2
] [7e09edc31bObc1a54e591a6ab52cbba6c3c817757ed3b3af01
f06ea6764f427e227
0f97a352f3cd86b67d43c8ffef5ffb34d11e8edc905d1b8f6b12091
423d38]]

From:
Subject:
Date:
To:

utd_enotice@utd.uscourts.gov
Activity in Case 2:15-cv-00853-RJS Rusk v. Fidelity Brokerage Services
Sealed Document
July 26, 2021 at 10:11 AM
ecf_notice@utd.uscourts.gov

This is an automatic e-mail message generated by the CM/ECF
system. If you need assistance. call the Help Desk at
(801)524-6100.
***NOTE TO PUBLIC ACCESS USERS*** Judicial Conference
of the United States policy permits attorneys of record and
parties in a case (including pro se litigants) to receive
one free electronic copy of all documents filed electronically, if
receipt
is required by law or directed by the filer. PACER access fees apply
to all other users. To avoid later charges, download a
copy of each document during this first viewing. However, if the
referenced document is a transcript, the free copy and 30
page limit do not apply.
US District Court Electronic Case Filing System
District of Utah

Notice of Electronic Filing
The following transaction was entered on 7/26/2021 at 10:10 AM MDT

Case Name:
Rusk v. Fidelity Brokerage Services
Case Number:
2:15-cv-00853-RJS
Filer:
Zachary R. E. Rusk
WARNING: CASE CLOSED on 04/30/2019
Document Number:312

and filed on 7/23/2021

Docket Text:

**SEALED DOCUMENT** Motion for Leave to Proceed In Forma
Pauperis to US Supreme Court re [311]
Notice of Filing filed by Plaintiff Zachary R. E. Rusk. (jwt)
2:15-cv-00853-RJS Notice has been electronically mailed to:
Jason D. Boren borenj@ballardspahr.com, LitDocket_West@
ballardspahr.com, brownlj@ballardspahr.com,
maddenen@ballardspahr.com, saltlakedocketclerk@ballardspahr.com
Zachary R. E. Rusk zachrusk5@gmail.com
2:15-cv-00853-RJS Notice has been delivered by other means to:
The following document(s) are associated with this transaction:
Document description:Main Document
Original filename:n/a
Electronic document Stamp:
[STAMP dcecfStamp_ID=1060034973 [Date=7/26/2021] [FileNumber=4861
721-0
[7b59691e4a0b7f26f6bc69aa3198e7f2b43545b9c93855776bd41e4
c1c041202196
715ab54df23ef10b4843ea8afaef856aa6428c157bb06748db3193853
6719]]

utd_enotice@utd.uscourts.gov
Activity in Case 2:15-cv-00853-RJS Rusk v. Fidelity Brokerage Services Lodged Document
August 2, 2021 at 9:08 AM
ecf_notice@utd.uscourts.gov
.

From:
Subject:
Date:
To:

-

This is an automatic e-mail message generated by the CIVI/ECF system. If you
need assistance. call the Help Desk at
(801)524-6100.
***NOTE TO PUBLIC ACCESS USERS*** Judicial Conference of the United
States policy permits attorneys of record and
parties in a case (including pro se litigants) to receive one free electronic
copy of all documents filed electronically, if receipt
is required by law or directed by the filer. PACER access fees apply to all
other users. To avoid later charges, download a
copy of each document during this first viewing. However, if the referenced
document is a transcript, the free copy and 30
page limit do not apply.
US District Court Electronic Case Filing System
District of Utah

Notice of Electronic Filing
The following transaction was entered on 8/2/2021 at 9:08 AM MDT and filed on 7/31/2021

Case Name:
Rusk v. Fidelity Brokerage Services
Case Number:
2:15-cv-00853-RJS
Filer:
WARNING: CASE CLOSED on 04/30/2019
Document Number: 314
Docket Text:

DOCUMENTS LODGED consisting of Email from Plaintiff with copies of
Petition for a Writ of Certiorari,
letter, orders, and tracking receipt.
Note: attached document lodged for reference purposes only; no response
required unless specifically
ordered by the court. (Attachments: # (1) Petition for a Writ of Certiorari, # (2)
Letter and orders from
Supreme Court, # (3) Trackingt Receipt)(jwt)
2:15-cv-00853-RJS Notice has been electronically mailed to:

Jason D. Boren borenj@ballardspahr.com, LitDocket_West@ballardspahr.com,
brownljgbaliardspahr.com,
maddenen@ballardspahr.com, saltlakedocketclerk@ballardspahr.com
Zachary R. E. Rusk zachrusk5@gmail.com
2:15-cv-00853-RJS Notice has been delivered by other means to:

The following document(s) are associated with this transaction:
Document description:Main Document
Original filename:n/a
Electronic document Stamp:

[STAMP dcecfStamp_ID=1060034973 [Date=8/2/2021] [FileNumber=4867714-0]
[34899377a5f11227f69ca396f74bf9ef4209701caeb4328319afef572fb75c8b845c
9bb5c3037a767b51316a06e4dd75fb84224e6d2abe8b1d45e3956a2d91b7]]
Document description: Petition for a Writ of Certiorari
Original filename:n/a
Electronic document Stamp:

[STAMP dcecfStamp_ID=1060034973 [Date=8/2/2021] [FileNumber=4867714-1]
[4a32105c5340f7f285b6dd749412f74fe080ee05db7b6495a5f153fd332b395dc7bf
0d6ca041f97458154d8e13e357243c37240ac8f7836a43b4374a68aefa55]]
Document description: Letter and orders from Supreme Court

Original filename:n/a
Electronic document Stamp:
[STAMP dcecfStamp_ID=1060034973 [Date=8/2/2021] [FileNumber=4867714-2]

[942684e0506a16a7721f929b9901ff3a0bc573c7db69515f86a8faa8cb6f113b2c9e
160b9a6ed52df09f6679abcc0fa50f9accdb193dc3b81dcb940600b971c2])
Document description: Trackingt Receipt
Original filename:n/a
Electronic document Stamp:
[STAMP dcecfStamp_ID=1060034973 [Date=8/2/2021] [FileNumber=4867714-3)

[ba1f1 b3cdf5b6adaa1718218e403c91eae4a161a6f420dbe66232(00adec13b65863
c271dda3616813bcdcfead1d1c61ba97dd1929153a96c3c7ba65b2365dOd]]

From:
Subject:
Date:
To:

utd_enotice@utd.uscourts.gov
Activity in Case 2:15-cv-00853-RJS Rusk v. Fidelity Brokerage Services Lodged Document
August 2, 2021 at 9:11 AM
ecf_notice@utd.uscourts.gov

!"----"
i -ij
'',.___,/

This is an automatic e-mail message generated by the CM/ECF system. If you need
assistance, call the Help Desk at
(801)524-6100.
***NOTE TO PUBLIC ACCESS USERS*** Judicial Conference of the United States
policy permits attorneys of record and
parties in a case (including pro se litigants) to receive one free electronic copy of all
documents filed electronically, if receipt
is required by law or directed by the filer. PACER access fees apply to all other users.
To avoid later charges, download a
copy of each document during this first viewing. However, if the referenced document
is a transcript, the free copy and 30
page limit do not apply.
US District Court Electronic Case Filing System
District of Utah

Notice of Electronic Filing
The following transaction was entered on 8/2/2021 at 9:11 AM MDT and filed on 7/31/2021

Case Name:
Rusk v. Fidelity Brokerage Services
Case Number:
2:15-cv-00853-RJS
Filer:
WARNING: CASE CLOSED on 04/30/2019
Document Number:315
Docket Text:

** SEALED DOCUMENT ** DOCUMENTS LODGED consisting of Motion for Leave to Proceed
In Forma
Pauperis in the Supreme Court of the United States. (NOTE: motion copy was received in
the same
email as [314]Lodged Document.)
Note: attached document lodged for reference purposes only; no response required unless
specifically
ordered by the court. (jwt)
2:15-cv-00853-RJS Notice has been electronically mailed to:
Jason D. Boren borenj@ballardspahr.com, LitDocket_West@ballardspahr.com, brownlj@ba
llardspahr.com,
maddenen@ballardspahr.com, saltlakedocketclerk@ballardspahr.com
Zachary R. E. Rusk zachrusk5@gmail.com
2:15-cv-00853-RJS Notice has been delivered by other means to:
The following document(s) are associated with this transaction:
Document description:Main Document
Original filename:n/a
Electronic document Stamp:
[STAMP dcecfStamp_ID=1060034973 [Date=8/2/2021] [FileNumber=4867733-0]
[80d07c04efb5c664aa79b5e6e5e27b684cb5a636b8f5adbbfe9ab6c842316a25537c
53a5b40f72ad5e428d2b730b7ebf424060491e8428d9d6cbeb96f14ecc6c]]

From:
Subject:
Date:
To:

utd_enotice@utd.uscourts.gov
Activity in Case 2:15-cv-00853-RJS Rusk v. Fidelity Brokerage Services
USCA Letter Supreme Court Writ of Certiorari
August 13, 2021 at 8:02 AM
ecf_notice@utd.uscourts.gov

This is an automatic e-mail message generated by the CM/ECF
system. If you need assistance, call the Help Desk at
(801)524-6100.
***NOTE TO PUBLIC ACCESS USERS*** Judicial Conference
of the United States policy permits attorneys of record and
parties in a case (including pro se litigants) to receive one free
electronic copy of all documents filed electronically, if receipt
is required by law or directed by the filer. PACER access fees apply
to all other users. To avoid later charges, download a
copy of each document during this first viewing. However,
if the referenced document Is a transcript, the free copy and 30
page limit do not apply.
US District Court Electronic Case Filing System
District of Utah

Notice of Electronic Filing
The following transaction was entered on 8/13/2021 at 8:02 AM MDT

Case Name:
Rusk v. Fidelity Brokerage Services
Case Number:
2:15-cv-00853-RJS
Filer:
WARNING: CASE CLOSED on 04/30/2019
Document Number: 316

and filed on 8/13/2021

Docket Text:

Letter from US Supreme Court re: Notice of Petition for Writ of
Certiorari re [300] Notice of Appeal,.
Supreme Court Case Number 21-5331. (jrj)
2:15-cv-00853-RJS Notice has been electronically mailed to:
Jason D. Boren borenj@ballardspahr.com, LitDocket_West@ballardsp
ahr.com, brownlj@ballardspahr.com,
maddenen@ballardspahr.com, saltlakedocketclerk@ballardspahr.com
Zachary R. E. Rusk zachrusk5@gmail.com
2:15-cv-00853-RJS Notice has been delivered by other means to:
The following document(s) are associated with this transaction:
Document description:Main Document
Original filename:n/a
Electronic document Stamp:
[STAMP dcecfStamp_ID=1060034973 [Date=8/13/2021] [FileNumber=4880
135-0
] [2bee593640b2b5cfd9d1d5ea0d5067ef0c5a98ad6c477eb15541a82
5a795f27319d
53f693ce134560398f9ad262f2fe1217a5442ff2101cb0e9329e8e36b6adf]]

EXHIBIT C

From: Zach Rusk zachrusk5@gmail.com
Subject: Re: USPS® Item Delivered 950551300628933948037
6
Date: December 13, 2019 at 12:25 PM
To: Jason D. Boren borenj@ballardspahr.com
Bcc: zachrusk5@gmail.com
Bytheway, again: who will be litigating against me in the US-SC
and/or who shall I send pleadings to going forward? If you won't
be
barred in the US SC in time. (Still haven't received a response on
this, perhaps your firm is working on getting you registered).
Also. Since your client doesn't have a leg to stand on, and given
the seriousness of the issues presented, plus the affects this case
could yield for many, among a number of other reasons, be sure
to let me know if your client gets serious about settlement sooner
than later. If not, no worries at all. In any event, I'm super
excited. While hoping it wouldn't have to get here, been waiting
for this for a
long time. I think the US-SC has been too...
Best of luck..
ZR
On Dec 13, 2019, at 9:10 AM, Zach Rusk <zachrusk5@gmail.com
> wrote:
Jason, called the US SC. Spoke with an analyst. He said that the
US SC petition was received. They're still processing it because
the analyst has been out this week.
Bytheway, my OSHA complaint is looking great. Should have an

order on it shortly.

ThanksZR
Begin forwarded message:
From : auto• replytvl tisps.con
Date: December 13. 2019 at 9 07:10 AM MST
To: zacl-lrusIN5,?,
' ginaiLcom
Subject: USPS,.;! Item Delivered 9505513006289339480376

a
I

Hello ,
Your item was delivered at 9:00 am on December 9, 2019 in
WASHINGTON, DC 20543.
Tracking Number: 9505513006289339480376
Delivered

Tracking & Delivery Options
My Account
Visit USPS Tracking® to check the most up-to-date
status of your package. Sign up for Informed
Delivery® to digitally preview the address side of your
incoming letter-sized mail and manage your
packages scheduled to arrive soon! To update how freque
ntly you receive emails from USPS, log in
to your USPS.com account.
Want regular updates on your package? Set up text alerts

.

INFORMED DELIVERY` Alp

Sign up to view your mail
online or via email.

Download USPS Mobile®
1.0

Out;

Google Play

AppStore

US PS .COm I Privacy Policy I Customer Servic
e I FAQs
Delivery date and time depends on origin, destination and
Post Office"' acceptance time and is subject to change
.
Delivery options are subject to restrictions and may not
be available for your item.
This is an automated email; please do not reply to this
message. This message is for the design'ated recipien
t only and
may contain privileged, proprietary, or otherwise private
information. If you have received it in error, please delete.
Any
other use of the email by you is prohibited.
Copyright © 2017. All rights reserved.

